No. 21-33

IN THE

Supreme Court of the United States

MAXIMA ACUNA-ATALAYA, DANIEL CHAUPE-ACUNA, JILDA CHAUPE-
ACUNA, CARLOS CHAUPE-ACUNA, YSIDORA CHAUPE-ACUNA, ELIAS
CHAVEZ-RODRIGUEZ, MARIBEL HIL-BRIONES,
Petitioners,

v.
NEWMONT MINING CORPORATION, NEWMONT SECOND CAPITAL
CORPORATION, NEWMONT USA LIMITED, AND NEWMONT PERU LIMITED,
Respondents.

CERTIFICATE OF COMPLIANCE

I hereby certify that I am a member in good standing of the bar of this Court
and that, pursuant to Rule 33.1(h) of the Rules of this Court, the Reply Brief for
Petitioners complies with the type-volume limitations of Rule 33.1(g). Exclusive of
the exempted portions identified in Rule 33.1(d), the brief contains 2995 words. (The
undersigned is relying on the word-count utility in Microsoft Word 2013, the word-
processing system used to prepare the brief, consistent with Rule 33.1(d).)

October 14, 2021 fa 4 wy) Kk )

Richard L. Herz
